                                                   United States Department of State
                                                   and the Broadcasting Board of Governors

                                                   Office of Inspect.or Genera.l
UNCLASSIFIED                                          OCT 1 5 20iO

INFORMATION MEMO FOR THE SECRETARY

FROM:        OIG - Harold W. Geisel   ~¥W
SUBJECT: Office of Inspector General Peer Review

       Attached is a copy of a report released this week by the NASA OIG that
presents the results of their peer review of the State Department Office of Inspector
General's audit organizations. Generally accepted government auditing standards
(GAGAS) require OIG organizations that perform audits or attestation
engagements to have an appropriate system of quality control and to undergo
external peer reviews at least once every 3 years. State OIG's response to NASA
(Exhibit B to the NASA report) is included as a part of the external peer review
report and describes the actions taken and actions planned for 2011 to address the
reported deficiencies. Both the report and OIG's response will be posted on ~IG's
website.

       NASA OIG opined that the system of quality control for State OIG's audit
organizations in effect for the year ending September 30,2009, although suitably
designed, was not consistently followed by one of State's two audit divisions­
OIG's Middle East Regional Office (MERO). Consequently, State OIG received a
peer review rating ofpass with deficiencies. Most of the NASA OIG            .
recommendations focused on MERO's processes and procedures and will result in
OIG changing the GAGAS reports to assessment reports. It should be noted,
however, that the Department concurred with all 10 of the recommendations cited
in the three MERO reports included in the peer review, and 9 of those
recommendations have been fully implemented.

       In my October 8, 2010, response to NASA ~IG's draft report, I
acknowledged that, for the period reviewed, MERO did not consistently follow
OIG's audit organization system of quality control, and generally concurred with
the report's recommendations. I have taken, or plan to take in 2011, three


                                 UNCLASSIFIED
                                 UNCLASSIFIED 



management actions to ensure that OIG receives a pass with no deficiencies
opinion on our next peer review. Specifically, in the summer of 2009, I directed an
internal quality control review ofMERO's "Review of Diplomatic Security's
Management of Personal Protective Services in Iraq." The review found
deficiencies in MERO's system of quality control, and remedial actions were taken
to address the cited deficiencies in October 2009 - two months before NASA
began work on its peer review. In July 2010, when NASA OIG briefed my staff on
its potential findings, I immediately shifted responsibility for all GAGAS audits in
the MERO region to the Office of Audits. This action was directed three months
before the NASA peer review was finalized.
        Finally, in September 2010, I directed that all MERO activities and
functions merge within the Office of Audits, effective October 1, 2011, ensuring
that only one office within OIG issues GAGAS reports. This internal
reorganization will not disrupt MERO's work or change its mission and will result
in strengthening our quality control system through adherence to a single standard.
OIG staff and personnel will continue to be based in Baghdad, Islamabad, Kabul,
Amman, Cairo, and Washington, D.C.

       I remain committed to maintaining "boots on the ground" in contingency
areas as long as necessary. We will work to ensure the October 2011 merger of
MERO into the Office of Audits is seamless. Our work in the MERO region will
not change; we will still provide timely, accurate, and relevant reports that are
responsive to the needs of the Congress and the Department.

       I hope this memorandum answers any questions you may have regarding the
peer review and the subsequent internal realignment. Should you have any
questions on this matter, please feel free to contact me at 202-663-0361, or have
your staff contact Siobhan Hulihan, Executive Assistant, at 202-663-0366 or at
hulihans@state.gov.


Attachment: As stated.



                                 UNCLASSIFIED
Drafted   by:OIG:Siobh~ulihan   Clearance:   OG~art
10115/10     Ext. 663-0366
National Aeronautics and Space Administration
Office of Inspector General
Washington, DC 20546-0001




                                                 October 12, 2010

                                                                         Report No. IG-11-002

The Honorable Harold W. Geisel
Deputy Inspector General
U.S. Department of State
Office of Inspector General
Suite 8100, SA-3
2121 Virginia Avenue, NW
Washington, D.C. 20037

Dear Ambassador Geisel:

We have reviewed the system of quality control for the Department of State and Broadcasting
Board of Governors (State), Office of Inspector General (OIG), Office of Audits (OA) in effect
for the year ended September 30, 2009. The elements of quality control are described in the
Generally Accepted Government Auditing Standards (GAGAS) July 2007 Revision (GAO-07-
731G). State OIG is responsible for designing and complying with a system of quality control to
provide reasonable assurance that it is performing and reporting in conformity with applicable
professional standards in all material respects.

Our review was conducted in accordance with GAGAS and guidelines established by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE). During our review, we
interviewed State OIG personnel and obtained an understanding of the nature of the State OIG
audit organization and the design of its system of quality control sufficient to assess the risks
implicit in its audit function. Based on our assessments, we selected engagements and
administrative files to test for conformity with professional standards and compliance with State
OIG’s system of quality control. The engagements selected represented a reasonable cross-
section of State OIG’s audit organization, with emphasis on higher-risk engagements. Our
review was based on selected tests; therefore, it would not necessarily detect all weaknesses in
the system of quality control or all instances of noncompliance with it.

See Exhibit A (pages 10-11) of this letter for a description of our scope and methodology,
including the State OIG office that we visited and the engagements that we reviewed. See
Exhibit B (pages 12-15) for your comments.

There are inherent limitations in the effectiveness of any system of quality control; therefore,
noncompliance with the system of quality control may occur and not be detected. Projection of
any evaluation of a system of quality control to future periods is subject to the risk that the
system of quality control may become inadequate because of changes in conditions or because
the degree of compliance with the policies or procedures may deteriorate.

Our responsibility is to express an opinion on the design of the system of quality control and
State OIG’s compliance therewith based on our review. We believe the process we followed and
the procedures we performed provide a reasonable basis for our opinion.

In our opinion, the system of quality control for State OIG’s audit organization in effect for the
year ended September 30, 2009, although suitably designed, was not consistently followed in one
of State’s two audit divisions. Consequently, State OIG has received a peer review rating of pass
with deficiencies. 1


Organizational Structure

State OIG has two audit divisions: the domestic division, which has two locations (Washington,
D.C., and Rosslyn, Virginia), and a separate division for overseas audits called the Middle East
Regional Office (MERO). The domestic Office of Audits has four divisions: Audit Teams;
Financial Statement Audits; Information Technology Audits; and Quality Control, Planning and
Administrative Support. MERO was created on January 23, 2008, and has locations in Amman,
Jordan; Cairo, Egypt; Baghdad, Iraq; and Kabul, Afghanistan. State OIG has two Assistant
Inspectors General (AIGs) for auditing: one leads the domestic Office of Audits and the other
leads MERO. The MERO AIG told us that when his division was first created, he had planned
to develop a separate audit manual for MERO. However, this manual was never developed. In
April 2009, State’s Acting Inspector General directed MERO to adopt the manual used by the
domestic Office of Audits. Consequently, MERO auditors conducting reviews between January
2008 and April 2009 were operating with no officially documented audit policy.


MERO Deficiencies in Complying with a System of Quality Control

1. Lack of Documented Evidence in Support of Audit Conclusion – We did not always find
   documented evidence to support audit conclusions. GAGAS requires that auditors determine
   the overall sufficiency and appropriateness of evidence to provide a reasonable basis for
   findings and conclusions. The State OIG Office of Audits’ audit manual states that evidence
   is sufficient and appropriate when it provides a reasonable assurance that the findings or
   conclusions are supported within the context of the audit objectives.

       We determined for one MERO report that the evidence contained in the audit files did not
       support audit conclusions. Specifically, the audit documentation for the report was
       inadequate and finding summaries were often incomplete (MERO-IQO-09-02, “Review of
       Diplomatic Security’s Management of Personal Protective Services in Iraq,” January 9,
       2009). We also identified two deficiencies in another report: (1) audit steps were not cross-
       indexed to supporting work papers; and (2) auditors did not consistently follow State OIG’s
       quality control policies and procedures for performance audits (MERO-A-09-10,


1
    Federal audit organizations can receive a rating of pass, pass with deficiencies, or fail.

                                                                                                       2
   “Performance Audit of Embassy Baghdad’s Transition Planning for a Reduced United States
   Military Presence in Iraq,” August 19, 2009).

   In addition, for two reports we found MERO did not complete quality control checklists or
   provide other evidence of a comprehensive quality control review to ensure the audits
   complied with GAGAS (“Review of Diplomatic Security's Management of Personal
   Protective Services in Iraq,” MERO-IQO-09-02, January 9, 2009, and “Performance Audit of
   the Triple Canopy Contract for Personal Protective Services in Iraq,” MERO-IQO-09-03,
   April 30, 2009).

   According to MERO officials, its auditors did not include the elements discussed above in
   work papers because MERO did not begin to follow the State OIG Office of Audits’ or any
   other written audit manual until April 2009. Accordingly, we could not determine whether
   MERO audit conclusions were adequately supported by documented evidence in accordance
   with GAGAS.

   Recommendation 1: We recommend that the State Deputy Inspector General examine all
   audit reports issued by MERO since its creation in January 2008 to September 30, 2009, to
   assess whether the findings, conclusions, and recommendations are adequately documented
   and supported in accordance with GAGAS. Further, we recommend that the State OIG
   retract any report that fails to meet GAGAS standards.

   View of State OIG Official: Concur. At the time the reviewed audits were in process,
   MERO was still hiring and training staff, opening offices, and developing its internal control
   policies and procedures. MERO acknowledges that because of these circumstances and
   congressional and Department mandates to quickly provide audit coverage, its work papers
   were technically incomplete. We note that the Department concurred with the three reports’
   10 recommendations and has completed implementation of nine. Since the reports have been
   completed and the recommendations have been implemented, it would not be a good use of
   our limited resources to examine all the reports and assess whether the findings, conclusions,
   and recommendations are adequately documented and supported in accordance with
   GAGAS. In lieu of doing an assessment, OIG will convert all eight GAGAS reports to
   assessment reports and will notify all recipients.

   NASA OIG Comments: We consider the proposed action responsive to the intent of our
   recommendation. In addition to notifying all recipients of the 8 reports that the work either
   was not or may not have been conducted in accordance with GAGAS standards, State OIG
   should note the reports’ reclassification as assessment reports on its Web site or wherever the
   reports are publicly available.

2. Inadequate Evidence of Staff Supervision – We did not consistently find consistent evidence
   of adequate supervision of MERO staff. According to GAGAS, supervision involves
   providing sufficient guidance and direction to staff assigned to the audit to address the audit
   objectives and follow applicable standards. In addition, the State OIG Office of Audits’ audit
   manual states that it is the responsibility of the audit manager to document evidence of
   reviews to show that the project has met supervision standards. Three reports we examined
   (MERO-IQO-09-02, “Review of Diplomatic Security’s Management of Personal Protective

                                                                                                 3
Services in Iraq,” January 9, 2009; MERO-IQO-09-03, “Performance Audit of the Triple
Canopy Contract for Personal Protective Services in Iraq,” April 30, 2009; and MERO-A-09-
10, “Performance Audit of Embassy Baghdad’s Transition Planning for a Reduced United
States Military Presence in Iraq,” August 19, 2009) lacked adequate evidence of supervision
of staff. Specifically, the level of direction and supervision of staff was inadequately
documented in the work paper files. In addition, MERO staff signed and dated almost none
of the work papers to indicate they were prepared and ready for review nor did supervisors
sign and date the work papers to indicate they had been reviewed.

MERO officials attributed this deficiency to the fact that prior to April 2009, when MERO
adopted the State OIG Office of Audits’ audit manual, MERO work paper methodology did
not provide consistent, reliable evidence of work paper preparation and supervisory review.
As a result, MERO did not comply with GAGAS requirements for supervision during the
period covered by this peer review.

Recommendation 2: We recommend that the State Deputy Inspector General ensure proper
supervisory review and signoff of work papers prior to report issuance, in accordance with
the State OIG audit policies and GAGAS requirements.

View of State OIG Official: Concur. The recent hiring of MERO’s GS-15 office directors in
Washington (DC), Baghdad, Cairo, Kabul, and Islamabad will significantly facilitate the
teaching, coaching, and mentoring of MERO’s newly hired staff and ensure supervisory
review and signoff of work papers. The development and adoption of MERO’s Project
Documentation Set provides guidance on the process and required documentation for all
MERO evaluations to meet compliance with the quality standards.

NASA OIG Comments: We consider State OIG’s actions to be responsive to our
recommendation.

Insufficient Documentation of Audit Planning – We did not find sufficient documented
evidence to give reasonable assurance that MERO adequately planned its audits. GAGAS
requires that auditors must adequately plan and document the planning of work necessary to
address audit objectives. The State OIG Office of Audits’ manual lists several elements that
audit teams must document in their audit work paper files to ensure adequate planning of
audits, including assessing the risks of fraud, assessing internal controls, documenting
relevant laws and regulations, and documenting the audit’s scope and methodology. Based
on our review, we concluded that MERO did not consistently include documentation to
provide assurance that its audits were adequately planned.

In two of the three MERO reports we examined (MERO-IQO-09-02, “Review of Diplomatic
Security’s Management of Personal Protective Services in Iraq,” January 9, 2009, and
MERO-IQO-09-03, “Performance Audit of the Triple Canopy Contract for Personal
Protective Services in Iraq,” April 30, 2009), the audit methodology was not adequately
documented. Specifically, we did not find audit steps in the work paper summaries
demonstrating that the audit team had designed the methodology to obtain sufficient,
appropriate evidence to address the audit objectives or provide reasonable assurance that the
evidence was sufficient and appropriate to support the auditors’ findings and conclusions.

                                                                                               4
   None of the three of the reports we reviewed included documentation of audit risk
   assessments: (MERO-IQO-09-02, “Review of Diplomatic Security’s Management of
   Personal Protective Services in Iraq,” January 9, 2009; MERO-IQO-09-03, “Performance
   Audit of the Triple Canopy Contract for Personal Protective Services in Iraq,” April 30,
   2009; and MERO-A-09-10, “Performance Audit of Embassy Baghdad’s Transition Planning
   for a Reduced United States Military Presence in Iraq,” August 19, 2009). Moreover, in one
   of the reports the internal control evaluation procedures were incomplete and had not been
   initiated until after fieldwork was complete (MERO-IQO-09-02, “Review of Diplomatic
   Security’s Management of Personal Protective Services in Iraq,” January 9, 2009).

   MERO officials stated that these deficiencies occurred because MERO did not have an audit
   manual until April 2009 and, therefore, did not consistently include documentation of
   planning elements in their work papers. As a result of these deficiencies, we do not have
   reasonable assurance to conclude that audits performed by MERO during the period covered
   by our review complied with GAGAS for audit planning.

   Recommendation 3: We recommend that the State Deputy Inspector General ensure that
   MERO and other audit staff receive training on the importance of performing and
   documenting adequate audit planning in accordance with GAGAS.

   View of State OIG Official: Concur. In September 2009, at MERO’s first annual
   conference, MERO introduced a design matrix as a required planning tool for all
   assignments. In March and June 2010, senior Government Accountability Office (GAO)
   staff provided additional training to all MERO staff on using the design matrix for planning.
   Staff members received further training on the design matrix at MERO’s second annual
   conference in September 2010.

   NASA OIG Comments: We consider State OIG’s actions to be responsive to our
   recommendation.

3. MERO Did Not Have Adequate Control of Audit Work Papers – MERO was initially unable
   to locate the work papers for one audit we requested to review (MERO-I-09-09, “Review of
   the Roles, Staffing, and Effectiveness of Regional Embassy Offices in Iraq,” August 25,
   2009). GAGAS requires audit organizations to establish and comply with policies and
   procedures for the safe custody and retention of audit documentation. However, when we
   requested the work papers for this audit, MERO could not locate them. Accordingly, we
   selected another audit report for review. The MERO AIG informed us 2 months after our
   request that the missing work papers had been located on the MERO Baghdad server.
   Although we are aware that MERO auditors faced extreme war time conditions and were
   required to use State Department servers containing strict security access controls, upon
   returning to a stable working environment the auditors were required to properly document
   and file work papers to ensure that the information is safeguarded and readily accessible
   when needed.

   Recommendation 4: The State Deputy Inspector General should ensure that MERO audit
   staff has a reliable system in place for safeguarding work papers to ensure that audit reports
   are properly supported with documented and readily retrievable evidence.

                                                                                                    5
   View of State OIG Official: Concur. Since MERO’s inception in January 2008, MERO’s
   single greatest logistical challenge has been the lack of a reliable information management
   system that can be used by evaluation teams in Washington (DC), Amman, Baghdad, Cairo,
   and Kabul to store, access, and share work papers. However, MERO has taken and is taking
   actions to correct this deficiency. Specifically, in September 2009, MERO hired a contractor
   to develop a web-based application that would allow MERO to (1) securely share electronic
   documents and data among its five offices in real time; (2) improve project management
   capabilities, including development of automated work papers; (3) enhance project
   supervision; and (4) centralize document and data storage and retrieval. The system is
   scheduled to be implemented beginning in October 2010—first at MERO headquarters in
   Washington, DC, and Rosslyn, VA, and then at the four regional offices.

   NASA OIG Comments: We consider State OIG’s actions to be responsive to our
   recommendation.


Deficiencies Noted in State OIG’s Compliance with Its System of Quality Control

   Statements of Independence Were Not Consistently Signed as Required by the State OIG
   Office of Audits’ Audit Manual – We found 14 instances in four of seven projects we
   examined (MERO-A-09-10, “Performance Audit of Embassy Baghdad’s Transition Planning
   for a Reduced United States Military Presence in Iraq,” August 19, 2009; MERO-IQO-09-03,
   “Performance Audit of the Triple Canopy Contract for Personal Protective Services in Iraq,”
   April 30, 2009; MERO-IQO-09-02, “Review of Diplomatic Security’s Management of
   Personal Protective Services in Iraq,” January 9, 2009; and AUD-FM-09-07, “Audit of
   Undelivered Orders,” February 27, 2009) where statements of independence were not signed
   as required. GAGAS requires that audit organizations maintain documentation of the steps
   taken to identify potential personal independence impairments. The State OIG Office of
   Audits’ audit manual states that each staff member assigned to or working on an audit project
   must document his or her freedom both in fact and appearance from personal impairments to
   independence by documenting a completed Personal Impairment Statement in the assignment
   audit file. We determined that the State OIG – both MERO and the Office of Audits – did
   not consistently follow this requirement. Without documented statements of independence,
   State OIG lacks documented assurance that auditors are free of impairment.

   Recommendation 5: We recommend that the State Deputy Inspector General ensure that
   Audit employees document independence statements for each audit assignment.

   View of State OIG Official: Concur. The external peer review noted that the review team
   had found 14 instances in four of seven projects examined where statements of independence
   were not signed as required. MERO agrees that required statements were not obtained in 13
   instances. However, MERO has developed a Project Documentation Set, which includes
   requirements and guidance for the completion of independence statements by staff. MERO
   staff received training on the Project Documentation Set at MERO’s second annual
   conference in September 2010.




                                                                                              6
   In the remaining instance cited regarding unsigned statements of independence by AUD
   (Office of Audits), it should be noted that AUD requested, through several e-mails, that the
   then-Deputy Assistant Inspector General for Audits sign the statement of independence.
   However, the individual declined to sign the statement. The peer review team had been
   given copies of these e-mails, and the report should reflect the audit team’s efforts to have
   the independence statement signed.

   NASA OIG Comments: While we reviewed the e-mails requesting the then-Deputy
   Assistant Inspector General for Audits to sign a statement of independence, the end result is
   that the statement was never signed and, as such, we identified the missing statement of
   independence as an exception and included it in the overall deficiency. However, with that
   clarification, we consider State OIG’s actions to be responsive to our recommendation.


Deficiencies Noted in State OIG’s System of Quality Control

1. Continuing Professional Education (CPE) Monitoring System Lacks the Ability to Track
   Government CPEs – We found that State OIG’s system for monitoring training CPE credits
   does not distinguish between government and non-government CPEs. GAGAS requires that
   each auditor performing GAGAS work must complete 80 CPEs every 2 years and that at
   least 24 hours of these CPEs must directly relate to government auditing, the government
   environment, or the specific or unique environment in which the audited entity operates.
   However, the database used by the State OIG to track CPEs did not indicate whether CPEs
   were government or non-government. As a result, we could not determine whether audit
   staff met the 24-hour government CPE standard for the period covered by our review.

   Recommendation 6: We recommend that the State Inspector General revise its CPE tracking
   system so that it can distinguish between government and non-government CPEs.

   Views of State OIG Officials: Concur. AUD acknowledges that for the period reviewed by
   the peer review team, the database did not distinguish between government and
   nongovernment hours of continuing professional education (CPE). However, for the
   subsequent period (calendar years 2009 and 2010), AUD did maintain a separate spreadsheet
   to track the total number of government and non-government hours of CPEs completed by
   the staff. Staff received notices throughout the period informing them of their progress in
   meeting the requirements. This process is still in effect today.

   In July 2010, OIG’s technical support staff modified the training database so that the
   database would distinguish between government and non-government hours of CPEs. In
   addition, several database reports were revised to allow extraction of this information (1) by
   individual or AUD as a whole and (2) for a specified period or a complete historical listing.
   Evidence of this modification to the database was provided in July 2010.

   NASA OIG Comments: We consider State OIG’s actions to be responsive to our
   recommendation.

   Failure to Implement Recommendations from Last External Peer Review – We found that the
   State OIG did not fully implement the recommendation from its most recent external peer

                                                                                                    7
review conducted by the Department of Veterans Affairs (VA) OIG in May 2007. The
recommendation was that State’s Quality Assurance Team increase the number of quality
control reviews it performs. Specifically, the VA OIG recommended that the State Assistant
Inspector General of Audits “ensure the Policy, Planning, and Quality Assurance Division
performs semiannual quality assurance reviews of at least one GAGAS audit from each
[Office of Audits] division.” Because State OIG has two Office of Audits divisions (Audit
Teams and Financial Statement Audits) as well as MERO, implementation of the
recommendation would result in six quality assurance reviews per year. However, only two
quality assurance reviews were performed in fiscal year (FY) 2009 and both were for reports
issued in the March 31, 2009, semiannual reporting period. On March 9, 2010, State OIG
completed a third quality assurance review on report (MERO-IQO-09-02). However, this
report was also from the March 31, 2009, reporting period. Accordingly, no quality
assurance reviews were performed for any report issued between April 1 and September 30,
2009.

Failing to perform quality assurance reviews on an adequate number of audit projects may
adversely impact State OIG’s assurance that GAGAS requirements have been met as well as
preclude an opportunity to correct mistakes and improve the quality of audit products.

In addition, State OIG did not perform corrective actions to address the recommendation
from the previous external peer review to “Ensure the OA audit manual includes guidance on
Monitoring Contract Independent Public Accountants Nonfinancial Audits and Attestation
Engagements.” We found that the audit manual still did not include this guidance.

Recommendation 7: We recommend that the State Deputy Inspector General fully
implement the recommendation made by the VA OIG in 2007 to perform more quality
assurance reviews during the year with the purpose of improving the quality of operations
and reports issued by State OIG. In addition, the State OIG should revise the Office of
Audits’ audit manual to include guidance on monitoring contracted independent public
accountant (IPA) firms’ nonfinancial audits and attestation engagements.

View of State OIG Official: Concur in principle. AUD agrees that quality assurance reviews
should be an important part of ensuring that GAGAS requirements are met, but AUD cannot
commit to six quality assurance reviews semiannually. The recommendation made by the
Department of Veterans Affairs OIG in its May 2007 review for the Department of State OIG
to perform semiannual quality assurance reviews of at least one GAGAS audit from each
division is unrealistic. For example, for the semiannual period ended September 30, 2009,
AUD issued 10 GAGAS reports. Conducting quality assurance reviews for six of the 10
reports represents 60 percent of the universe, and this would be considered an unrealistic use
of AUD resources. In the future, AUD will perform quality assurance reviews based upon
the use of a representative sample of GAGAS reports issued. Since August 2010, AUD has
initiated two quality assurance reviews, with several more planned. Before this peer review,
AUD noted issues related to the adequacy of the oversight of contracted non-financial audits
or attest work performed by independent public accounting firms (IPA). In response to these
issues, AUD determined that the oversight of IPAs needed to be standardized. In that regard,
in February 2010, AUD staff developed a standardized program containing steps for IPA
oversight. The program was based upon CIGIE’s peer review checklist and section 650 of

                                                                                            8
   the GAO/PCIE (President’s Council on Integrity and Efficiency) Financial Audit Manual,
   “Using the Work of Others.” This program was added to AUD’s TeamMate library, and in
   March 2010, AUD used the program to monitor all non-financial statement contracted audit
   or attest work performed by IPAs. To reinforce the importance of properly overseeing the
   work of IP As, the Director of the Financial Management Division, in September 2010,
   provided training on oversight responsibilities to staff who were or would be overseeing
   work performed by IPAs.

   NASA OIG Comments: We consider State OIG’s actions to be responsive to our
   recommendation.

In addition to reviewing State OIG’s system of quality control to ensure adherence with
GAGAS, we applied certain limited procedures in accordance with guidance established by
CIGIE related to OIG’s monitoring of engagements performed by independent public
accountants (IPAs) under contract where the IPA served as the principal auditor. During our
review of AUD/CG-09-23, “Independent Accountants’ Report on the Application of Agreed-
Upon Procedures on Indirect Cost Rates Proposed by the National Committee on United States-
China Relations, Inc.,” August 14, 2009, we identified a number of concerns: (1) monitoring
efforts were not sufficient to determine whether the IPA contracted to perform the attestation
engagement did so according to GAGAS; (2) independence of the contracted IPA was not
determined and documented as part of the contracting process; (3) the contracted IPA’s system
of quality control was not evaluated as part of the contracting process; (4) a copy of the
contracted IPA’s latest peer review was not obtained and documented as part of the contracting
process; and (5) the degree of responsibility that the OIG accepted was not properly documented
as part of the OIG monitoring procedures.

While monitoring of engagements performed by IPAs is not an audit and therefore not subject to
GAGAS requirements, we conducted these limited procedures to determine whether State OIG
had controls to ensure that IPAs performed contracted work in accordance with professional
standards. Our objective was not to express an audit opinion and accordingly, we do not express
such an opinion. We raise the concerns outlined above for State OIG’s consideration.




Paul K. Martin
Inspector General

Enclosures




                                                                                              9
                                                                                        Exhibit A


                              SCOPE AND METHODOLOGY

We tested compliance with the State OIG’s system of quality control to the extent we considered
appropriate. These tests included a review of 7 of 26 audit and attestation GAGAS reports issued
during the period October 1, 2008, through September 30, 2009, and the April 2009 and October
2009 semiannual reporting periods.

We reviewed State OIG’s monitoring of one engagement performed by an IPA where the IPA
served as the principal auditor during the period October 1, 2008, through September 30, 2009.
Also, we reviewed two audits performed by the State OIG personnel in the domestic Office of
Audits and three from the MERO Division. The CIGIE Guide requires that we also review the
most recently completed financial statement audit, which was performed by an IPA firm.
Therefore, we reviewed the OIG monitoring procedures for the FY 2008 financial statement
audit, which was completed during FY 2009. This resulted in a total of seven selected
engagements selected for review. In addition, we reviewed the two internal quality control
reviews performed by State OIG during FY 2009.

State OIG Offices Visited

We performed on-site reviews and assessed the State OIG audits completed at the following
location:

Rosslyn Metro Center
Office of Audits, Room 720
1700 North Moore Street
Arlington, Virginia 22209


State OIG Reports Reviewed
Report Number                   Date             Title
                                       Attestation Audit
AUD/CG-09-23                    8/14/2009        Independent Accountants' Report on the
                                                 Application of Agreed-Upon Procedures on
                                                 Indirect Cost Rates Proposed by the National
                                                 Committee on United State-China Relations, Inc.
                                      Performance Audits
AUD-FM-09-07                    2/27/2009        Audit of Undelivered Orders
MERO-IQO-09-02                  1/9/2009         Review of Diplomatic Security's Management of
                                                 Personal Protective Services in Iraq
AUD/SI-09-15                    7/8/2009         Audit of Accountability, Inventory Controls, and
                                                 Encryption of Laptop Computers at Selected
                                                 Department of State Bureaus in the Washington,
                                                 DC, Metropolitan Area
MERO-A-09-10                    8/19/2009        Performance Audit of Embassy Baghdad's
                                                 Transition Planning for a Reduced United States
                                                 Military Presence in Iraq
MERO-IQO-09-03                  4/30/2009        Performance Audit of the Triple Canopy Contract
                                                 for Personal Protective Services in Iraq

                                                                                                10
                                                                                   Exhibit A


State OIG Reports Reviewed (continues)
Report Number               Date             Title
                               Financial Statement Audit
AUD/FM-09-02A               12/12/2008       Independent Auditor's Report on the Department of
                                             State's 2008 and 2007 Financial Statements
                           Internal Quality Assurance Audits
QCR AUD/CG-09-06            6/24/2009        Independent Accountants' Report on Application of
                                             Agreed-Upon Procedures on the Indirect Cost
                                             Rates Proposed by the American Council of
                                             Learned Societies
QCR AUD/FM-09-02A           6/4/2009         Independent Auditor's Report on the Department of
                                             State's 2008 and 2007 Financial Statements




                                                                                           11
                                                                                                          Exhibit B

                STATE INSPECTOR GENERAL COMMENTS



                                                        t oited Stat.'S D(>partment ofSt ak
                                                        and tI", Hroadca,tinB HoHf<1 of , .. " (>mol'S




                                                                                      OCT-S:mJ

The Honorable Paul K. Mort;n
Inspe<\Or General
Nat;"".l AemnaUlics and SpaCe Adrnini$tratioo
300 E Str«l. S. W.• Code W. Room 8V3 9
Washington, DC 2OS46

Dear Mr. Martin:

Thank }'ou for Ihe opponllIlity to comment 00 the draft r.-po" of the National Aeronautics and
Space Administrntion. Office of In.pcctor Ge ... ral. on tho extemal peer review it condUoCted of
lht Department of State and Broadcast;ng Board of Gove"",,,"- Office of In$pe<tor General
(OIG). Office of Audits (AU]) and Middlo Eas' Rc~ionAI Officc (J-IERO). The .. pon expresses
the opinion that tho: S),$tem of quality control for o/G', alldit organization "'..... uitably d"';gncd
but that it was DOt consistently follo",ed by MERO.

We ackoo'" ledge that MERO, for Ihe pcrioo rcvie ....~. did n<>t consistently follow the OIG',
audit orga"ization oy.tern of quality control. However. it is important to put these deflOicne;"s
into prope. p<:r<pcctive. In January 2008. the prior o"panment of State In,pcctur General
crt:a\ed MICRO in response to a congressional ""Iuirernent for the Dcpartm<nt OIG to quickly
put ··boots OIl the ground" to provide o,"e~ight of Oep""mcnt programs in an area spanning 30
countries from NOMem Africa to the traditi<m.al Middle East and S""thlCenlra1 Asia. In
addition. the M ERO $L"off WllS direcled to iss"" repons "'illtin 6 months after tho initiali"" of
projects in order to provide timely feedback to all stakellolders. inch&ding COrIgress_ A, a result.
MERO had been ill existe"", ""ll' for. year and 9 mQnth< when mis p<:er revi",,' was initiated
lasl year

Although your report ackDOwledg •• that MERO .uditors faced ext,..",., wartime conditio,,". il
does not credil \lH: office with the trtmeOOoLlS tasks and obstacles they faced in hiring and
trnining staff, 5CCking logi'ti",l .... ppon to accommodate staff Opera/ing in conlingcn<:y
<n .. ironments. and creating policies and procedures that ,,=    floxible enoui:/! to adapt \0
1IlIf0reseen circumslallCe •. Funhennore, it is importanl 1<) note that \lH: Department has
acknowledged tho ,';11 .... ofMERO', roporl$ and has implnn""ted numerous MERO
recommendation' that ha,-c strcnl¢1<ned Departmenl programs.

On Oc\obcr 29. 2009. AUD issued adrall quality control rc,';"w of the MIlRO rcpon RHj~ of
Diplo/tUU'c SecUFity'r Ma""gemem of r~r'""al P,ouctiw &rvicu In Ir"" (MERO-lQ0--09..()2,
january 20(9). which was issued in flMl form on March 8 . 201 O. At the lime lhe draft wlI$
issued. it became apparent thaI deftc iencies existed in MERO·. $}-",.m of qualily control. Your




                                                                                                                12
                                                                                                      Exhibit B

              STATE INSPECTOR GENERAL COMMENTS




.=
pmc [~~n.' rrinfOIT~ tbt fin<!ingo Or~ AUD quality cont rol~' As a [=11. in ~
        of2010, I ~ AUD to pttfonn all gm=.Ily X«ptM go\'nIllllmt auditing
mruLuds (GAGAS) audits in !be Middle East and lhat MERO perfOllli e\"aluaTioos in tbe Middle
East that comply "iih 1M quality stand>rds for insptcrioos and ,,\'::tluations issued in J;mlld:l)'
2005 by tbt Council ofImptcroo; Gmtrn on !oJegrity and Eftki=cy (CIGIE). In additio<l I
==ly dH«tN that MERO m~ "itb AUD effttli...t Octobtr 1. 1011. to rnsllft that ooIy oor
OIG om"" will issue GAGAS audiTS and lhat ;ill OIG audits lliill fullow oot symm of quality
C""lmt Ibt Assi<WII ImpecrorGm.ral for !>IERO and ~ A,sisTant InspttTOf Gmr-ral for
AUD art currenTly <hlting. lJan<;ition plan for that mtrg<.

In gmeraL I ronrur ,.-ill! tbt rrpofl 's rrrommendatioos; how~"n .   my~ 10         the indi\idual
rttOlllll1t'!ldations 3ft as follows:

DIG Rrwon", to RrcOllllllm<l:inoo] COOCUf. At tbr Timr tbt=;',u<l audits,,~ wpm<=,
MERO ",as otill hiring and training staff opming offi~ and ~~loping it' int<m:ll ,""1m!
policie. and ~_ !>!ERO .dnow~ws that. btt.u""or~ cirrurns taoce;:md
Cong£e;,;on:ol and Ikpmmenl nunda,.. to quiilly pr",~ audit CO\-=~. its work p:!p<fS ,.-ft.
ttdmic:rJIy iocomp l.~_ We DO~ WI tbt DrparTmrnl roocurrN with 1M tbrtt r<pO<\S ' 10
[~tions and has cOlllJl l.~ implonrnmion of ~ _ Sinee 'M rqx>ru have btto
compl~ and tbt ""OOlIIX'I>d.oti()[lS h"''' btto implm>rnl<'d il would 001 be • good u .. of OO!
limitM r=llUttS to ~ . 11 tbr RpOlts and a,=>; w~brr ~ frndings. conclusions. and
r~tions ar~ ~lI.1 t ~ly docwnmtM and supportM in a.cc~ with GAGAS. In
Ii." of doing an a>=>menl OIG will com-n1 ;ill ~ight GAGAS rq>OOs to a>~1 JqlOfIs and
will noTify;ill rr<:ipienlS.

OIG ~spon", to Rrconunmd.1non 1 Coorur. 1M Ift:enl hiring o[!,.IERO's GS-IS offic ~
<lirn:lors in Washington (DC). B .~. C3iro. Kabul. and Islamabad will significantly fa.ci lit'u~
tbt teaching, coaching, and mentocing of"IERO 's ","wly hirM staff and    ==
                                                                           supervisory
rnYw and sign off ofworl:~ . Tht <It\'~ l opment and 3doptioo o[!,.IERO·, Proir<:!
Documentalion s.t pro\~ guid.ance 00 tbt process and rrquirM docutneOl'liOll for all "IERO
~"aluations 10 mtfl compliance ,,;!h tbt quality otandards.


OIG Itt,pen'" 10 Rrcoolmm¢ujop 3: Coorur. In Septembt< 2OC)9. al "IERO's Imt annual
cooferenc",_"IERO inlIoducM a <bign matrix :as • rtqIIirM planning 1001 for all a>sigmnenl' . In
March and luDt 2010. 5nliOf Go\-nnmenl AccOUlllability Offi"" (GAO) otafIprO\;<!td . dditional
training 1<, all "!ERO staff 011 min,<!: tbt ~gn I!l.1trix for planning. Staff!llrlllb= r=i\~
filnbtr training 00 tbt ~5ign m:ltrix at "IERO· . 5<'COOd :tnnIl31 coofermce in Sep!<m),.,-101 0.

OIG Itt,pen'" 10 RrcOllWlnl<latiou. 4: Coorur. SiDee "IERO's inctpTion in January 2008.
"IERO ', sing1~ jIlr.I""llogisTic. 1 challengr has ~ Ibr l.:id: ora ",liabl~ informatiOll
man:lgenl""" S)'SI= truu can lit ~ by n 'lllualiOll I~ams in Wa>hington (DC). Amman.
Baghdad. Cairo, and K.:ibullo otOf~. a =. and >hare wark p>perS. Hown"n, MERO has taken
and is tiling actions 10 corrr<:! this dtficiency. Spn:iIicaU)'. in Septembt< 2009. "IERO hUM .
contJa.ctor 10 dn~lop a wtb-~ application that would allow MERO 10 (I ) ~curd)'"m,.,
~lrruooie document. and <lata among its fi\~ offic"" in ",al Timt; (2) imprO\~ projr<:1
man:lgenl""" c:lp. bilitia including <It\"dopment of :ruIOlll.1tM work ~ ; (3) enh:ioce projr<:!


                                                 ,


                                                                                                            13
                                                                                                       Exhibit B

               STATE INSPECTOR GENERAL COMMENTS




,up=~'ion:  :md (4) central iz~ documenJ :md dat:! storag~ and [m~vaL Ibt symem is sdltdultd
to   ~ imple1!le11T~ ~ginning  in OcToo.. 2{lIO----ImT at "!ERO Ir.odqll3fTefS in Wa5.hingTan. OC.
:md Rossl)n. VA. and thrn aT !be four rrgional offi=

OIG Itt,pon'/( to Rccoolmm¢ujop 5: COOCUf. Ibtatemal P=' R"i~' noT ~ Th." ~lnitw
t~am had fOlllld 14 ins!3Dcrs in fO\lJ of st\'eII proj~ ..:.unint<I "il<r~ staTeI!leIIts of
in<Itpen<IeDc~ w~ oot signnl:os RqIIUM. MERO . gr= ThaTR<JIIUM statel!lelllS ,,~~ no!
obWntd in U insT~. Hown~, "'ERO has <It,.. loptd . Projecr DocumenTaTion~. which
indudrs roNJUirtment!; and guid.lncc fur The cornpleTioo ofin<ltpcndcncc staTnnenlS by sufI'.
"'ERO S1aff[ttri\~ training on ~ Projecr DocumenTation ~ a' "!ERO's 5CCOOd annual
conferencoc in Sq>1t1nbcr 2010.

In the remaining in<T"""oc ci~ [~g:arding unsigot<! S1aTeI!leIITS of in<kpen<Ic-ococ by AUD. iT
should ~ no!~ That AUD [~T~. t hroughst\=>1~-rn.:Iils. That ~Tben · Dtputy AssisTanT
lnspttTor Gmeral for AudiTS sign ~ statel!lellT of ~e. Hown.... the individual
<It<:lined to sign ~statcmenT. IbtP='lnitw",,,,,, h:>d btm givntcopirs of~ ~mai l s,:md
the rrpor! >bould rdkcr the audiT team's dfons To ha,,. The in<kpocndmce ,t1tcmenT signed.

OIG ~spon'/( to Rccoo1lllmd.1Tioo6: COOCUf. AUD a.ckno,,; lMge; That for the period [n; ""'~
by the pcocr Ini~' Team. the datl~ did no! distinguish betw,""" gO\=>CIlt and non-
gO\"mWlCllt hours of cootinuing prof..,ional Mocatioo (CPE). Hown~. for the ~ucnt
period (calendar , .. an 2009 and 2010). AUD did m:linTain. "P""'T~ 'prcad>hcfl To Tr.><k the
toW DIDIlbet of gO\'ftIlIllenTand ooo-go\=>enI hours ofCPEs compk1ni by The staff STaff
[=i\~ oot:i= Throughout The perioo informing them oftbcir progr... in mtfling The
[~uircmenTS. This proc= is sliU in effecr Today.


In July 20 10. O!G', T ~ca1 support sTaffmOOifi~ The training d:II.~ s.o That The daTaba.'i<
would distinguish betw,""" go\=>enI:md !IOD-govcrnmenThours ofCPEs. In addition. st\....al
datlb:asc rcpor1' w~ In'iscd to allow atra.cTioo of this infOflll<ltion (I) by indi,~dual or AUD . s
• wbole :md (2) for • spt<:ificd period or • cornpl~~ hisTorical1isting E,~ ofthi'
modificatioo to the datlb:asc was J>fO\~<Itd in July 2010

OIG Itt,pon'/( to Ittcg))mm¢ujop 7: COOCUf in principk. AUD .gr= that quality .5Sllf3OCe
[nitw. o.hould ~ 3D important p:nT of ensuring ThaTGAGAS ft<jIJirel!lellts arc met but AUD
C3flDOt rommiTTO six quality assur.mce Initw. scmi:tDDll:l11y. n.., rrc<>mlllCl>d.1Tion made by ~
Dtp:ntmcnt ofVC!= AreIirs OIG in it!; "by 2007 rn;~w fur The Dtp>:nmcm ofSTa'" OIG To
perform s.cmi.:mnual quality .."""""" rC\i~ws of .T luST ooc GAGAS :rudiTfrom ~ach di,;,ioo is
uorc:a1i,Tic . f or =unplc. for the snni:tDDll:l1 period cndt<I Sq>tembet 30. 2009. AUI) i,sued 10
GAGAS rq>orIS. Conducting quality .. ~ ft,i~" for six of ~ 10 [<porIs rcpr=TS 60
percenT of the uni\~ . and thi, woold ~ coosidcf~ an IIlIfc:a1isTic """ of AUD rrsource;. In
the fiJtuJc. AUD "ill perform quality .. ,~ rC\yws ba.'i«I upon the """ of . rcprrsentati,,.
sample of GAG AS r<pOfl5 i,sued. SW AugusT20tO, AUD has initi3l«lTwoqu:ttity .. ,ur:mc~
[nYw• . ,,;Thst\..ra[ morcp1anncd

Ikfore this P=' rn~~w . AUD 00"'<1 i,sues [d:lI~ to the adcq\LlCy of~ o,..mgh! of contr:>cT~
"""'f!ll.1llci.>l audiTS or . nrsT work pnf~ by independent public a.ccoonTing f!ffilS (IPA). In




                                                                                                             14
                                                                                                      Exhibit B

               STATE INSPECTOR GENERAL COMMENTS




response to tbe.e issue<. AUD dckrmined tbat tbe oversight ofIP As needed to be .llIndanliud.
In that regard. in February 201 O. AUn staff developed a standardized program containing .!<pS
for If'A oversight. The program was based upon CIGIE', pm n;vioe.... checkli!! aJld section 650
of the GAo.'PClE (Preside",', Council on Integrity and Eflic;rncy) Financia l Audit Man .... l.
~U.i ng the Work ofOthcn." This program was added to AUO', Team.\1ate library. and in
Marth 201 0, AUO used the pro""", to monitor 011 non-financial slatement contracted aodit or
attest ""'k performed by IPAs. To reinforce the impor<ane<: of prQpcTly Ov,,",,«in!! the "uri< of
IPAs. tho Director of tho Financial Management Division. in September 2010. provided training
"" oversight responsibilities to staff who we", Or would be ov .... e iog "ur~ perfonned by IPAs.

Please express my aPl'",c;"tion to yow stafffor thoir time. dedicati on, and pmfmionalism.
Yow recommendations wiU serve to Slreni\hen AUD-, and MERO', ~ x isting .)·St<m. of quality
control . Should you ha"e any questioos., please call me at (202) 663-<)361 or have your 'taff call
Evelyn R. KI<rnSlinc, Assi.tant Inspe<1OT General for Aodits.. at (202) 663 -0372.

                                              Si"""rdy.



                                              Harold W. Gc:i.el
                                              Deputy lD,pe<to. General




                                                 ,



                                                                                                            15
